Certificate of Service
10/21/2019
Herewith are 40 of the paperbooks
No.
In the

Supreme Court of the United States
MICHAEL LAMBERT, AN INDIVIDUAL, PETITIONER,
v.
ESTATE OF KEVIN BROWN, BY ITS SUCCESSOR IN INTEREST
REBECCA BROWN; REBECCA BROWN, SUCCESSOR IN
INTEREST TO THE ESTATE OF KEVIN BROWN
PETITION FOR WRIT OF CERTIORARI

I hereby certify that I am this day serving the foregoing
document (3) copies upon the person(s) and in the manner
indicated below. Service by first-class mail addressed as follows:
Eugene G. Iredale
Grace Jun
Julia Yoo
Iredale and Yoo, APC
105 West F Street
4th Floor
San Diego, CA 92101

Respectfully Submitted,
ROD CURRY
CURRY & TAYLOR LLC
1726 NEVADA AVE NE
ST. PETERSBURG, FL 33703
(202) 350-9073

